Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


 BLUE CROSS BLUE SHIELD OF
  TENNESSEE OVERCLAIMED
  SUPPLEMENTAL EXECUTIVE
   RETIREMENT PLAN COSTS
      FOR FISCAL YEARS
     2005 THROUGH 2009


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                     September 2012
                                                      A-07-12-00391
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective August 1, 2009.

BCBS Tennessee sponsors a supplemental executive retirement plan (SERP) whose primary
purpose is to provide deferred compensation to a select group of management or highly
compensated employees. The SERP is a nonqualified defined-benefit pension plan designed to
restore benefits lost because of the Internal Revenue Code limits applicable to the regular
qualified pension plan.

CMS reimburses a portion of its contractors’ SERP costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation, Cost
Accounting Standards (CAS), and the Medicare contracts.

OBJECTIVE

Our objective was to determine whether the following costs were allowable for Medicare
reimbursement:

    •   SERP costs claimed by BCBS Tennessee for Medicare reimbursement for fiscal years
        (FY) 2005 through 2009 and

    •   BCBS Tennessee’s termination claim, dated November 24, 2009, for SERP costs
        associated with the Medicare Part A contracts.

SUMMARY OF FINDINGS

BCBS Tennessee claimed $1,365,259 in SERP costs; however, we determined that allowable
SERP costs for FYs 2005 through 2009 were $359,578. The difference, $1,005,681, was
unallowable for Medicare reimbursement. BCBS Tennessee claimed unallowable SERP costs
because it did not calculate them in accordance with Federal regulations and the Medicare
contracts’ requirements.

In addition, BCBS Tennessee’s termination claim for SERP costs was unallowable for Medicare
reimbursement. BCBS Tennessee submitted a termination claim of $365,285 for Medicare
reimbursement of SERP costs that it said it would incur subsequent to the termination of the
Medicare contracts. Pursuant to CAS 412, BCBS Tennessee’s entire termination claim of
$365,285 for SERP costs was unallowable for Medicare reimbursement.




                                               i
RECOMMENDATIONS

We recommend that BCBS Tennessee:

   •   revise its Final Administrative Cost Proposals for FYs 2005 through 2009 to reduce its
       claimed SERP costs by $1,005,681 and

   •   withdraw its termination claim of $365,285 for SERP costs associated with the Medicare
       Part A contracts.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendations.
BCBS Tennessee stated that it would work directly with CMS to resolve these issues.

BCBS Tennessee’s comments are included in their entirety as Appendix B.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Blue Cross Blue Shield of Tennessee and Medicare .............................................. 1
              Supplemental Executive Retirement Plan............................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 1
               Objective ................................................................................................................. 1
               Scope ....................................................................................................................... 1
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 2

          FEDERAL REQUIREMENTS FOR
            SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN .......................................... 3

          UNALLOWABLE SUPPLEMENTAL EXECUTIVE RETIREMENT
            PLAN COSTS CLAIMED ........................................................................................... 3

          UNALLOWABLE SUPPLEMENTAL EXECUTIVE
            RETIREMENT PLAN TERMINATION CLAIM ....................................................... 4

          RECOMMENDATIONS .................................................................................................... 5

          AUDITEE COMMENTS.................................................................................................... 5

OTHER MATTER........................................................................................................................ 5

APPENDIXES

      A: BLUE CROSS BLUE SHIELD OF TENNESSEE STATEMENT OF ALLOWABLE
         SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN COSTS FOR FISCAL
         YEARS 2005 THROUGH 2009

      B: AUDITEE COMMENTS




                                                                     iii
                                            INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Tennessee and Medicare

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated August 1, 2009.

Supplemental Executive Retirement Plan

BCBS Tennessee sponsors a supplemental executive retirement plan (SERP) whose primary
purpose is to provide deferred compensation to a select group of management or highly
compensated employees. 1 The SERP is a nonqualified defined-benefit pension plan designed to
restore benefits lost because of the Internal Revenue Code limits applicable to the regular
qualified pension plan.

CMS reimburses a portion of its contractors’ SERP costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR), Cost Accounting Standards (CAS), and the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the following costs were allowable for Medicare
reimbursement:

    •    SERP costs claimed by BCBS Tennessee for Medicare reimbursement for fiscal years
         (FY) 2005 through 2009 and

    •    BCBS Tennessee’s termination claim, dated November 24, 2009, for SERP costs
         associated with the Medicare Part A contracts.

Scope

We reviewed BCBS Tennessee’s SERP costs claimed on its Final Administrative Cost Proposals
(FACP) for FYs 2005 through 2009. Additionally, at the request of CMS, we audited the SERP
termination claim of $365,285 that BCBS Tennessee submitted for the Medicare Part A
contracts’ SERP costs.


1
 BCBS Tennessee’s plan document refers to its nonqualified defined-benefit plan as the “Supplemental Retirement
Program for Certain Employees of BCBS Tennessee” (emphasis added). However, for this report we follow the
more widely used convention and refer to such plans as supplemental executive retirement plans.

                                                       1
Achieving our objective did not require that we review BCBS Tennessee’s internal control
structure. We reviewed the controls related to the SERP costs that BCBS Tennessee claimed for
Medicare reimbursement to ensure that those costs were allowable in accordance with the FAR
and the CAS.

We performed fieldwork at BCBS Tennessee’s office in Chattanooga, Tennessee, during
November and December 2011.

Methodology

We obtained information from BCBS Tennessee regarding costs associated with the SERP for
FYs 2005 through 2009 2 and the termination invoice submitted to CMS. We identified the
SERP costs for the Total Company including the Medicare segment. BCBS Tennessee provided
us with information on its SERP benefit payments and Medicare line-of-business percentages. In
accordance with the FAR and the CAS, we calculated the allowable amortizable benefit for
participants who received a lump-sum benefit payment.

We performed this review in conjunction with our audits of pension segmentation requirements
(A-07-12-00389) and of pension costs claimed for Medicare reimbursement (A-07-12-00390) for
BCBS Tennessee. We used the information obtained and reviewed during these audits in
performing this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

BCBS Tennessee claimed $1,365,259 in SERP costs; however, we determined that allowable
SERP costs for FYs 2005 through 2009 were $359,578. The difference, $1,005,681, was
unallowable for Medicare reimbursement. BCBS Tennessee claimed unallowable SERP costs
because it did not calculate them in accordance with Federal regulations and the Medicare
contracts’ requirements.

In addition, BCBS Tennessee’s termination claim for SERP costs was unallowable for Medicare
reimbursement. BCBS Tennessee submitted a termination claim of $365,285 for Medicare
reimbursement of SERP costs that it said it would incur subsequent to the termination of the
Medicare contracts. Pursuant to CAS 412, BCBS Tennessee’s entire termination claim of
$365,285 for SERP costs was unallowable for Medicare reimbursement.




2
    Through the August 1, 2009, contract termination date.

                                                             2
FEDERAL REQUIREMENTS FOR
SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN

The determination and allocation of pension costs are addressed by the Medicare contract, which
states: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.” To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with CAS 412 and 413 and (2) funded as specified by
part 31 of the FAR.

According to CAS 412.50(c)(3), the cost of nonqualified defined-benefit pension plans shall be
assigned to cost accounting periods in the same manner as qualified plans under the following
conditions:

   •   the contractor, in disclosing or establishing cost accounting practices, elects to have a
       plan so accounted for;

   •   the plan is funded through the use of a funding agency; and

   •   the right to a pension benefit is nonforfeitable and is communicated to the participants.

CAS 412.50(c)(4) states that the costs must be assigned using the pay-as-you-go method if a plan
does not meet all of the above requirements. The amount of pension costs assignable to a cost
accounting period for pay-as-you-go plans is specified in CAS 412.50(b)(3) and consists of:

   •   the net amount for any periodic benefits paid for that period and

   •   the level annual installment required to amortize over 15 years any lump-sum benefit
       payments.

FAR 31.201-2(a) further states, in part, that a cost must be reasonable to be allowable. In
addition, FAR 31.205-6(b)(2) provides that comparable market data be used to evaluate the
reasonableness of compensation. Furthermore, FAR 31.201-6(a) states: “When an unallowable
cost is incurred, its directly associated costs are also unallowable.” SERP pension benefits are
directly associated with compensation because the benefit is based on the salary history of the
recipient.

Additionally, FAR 31.205-6(p) states: “Costs incurred … for compensation of a senior
executive in excess of the benchmark compensation amount determined applicable for the
contractor fiscal year … are unallowable.”

UNALLOWABLE SUPPLEMENTAL EXECUTIVE RETIREMENT
PLAN COSTS CLAIMED

BCBS Tennessee claimed $1,365,259 in SERP costs; however, we determined that allowable
SERP costs for FYs 2005 through 2009 were $359,578. The difference, $1,005,681, was

                                                 3
unallowable for Medicare reimbursement. BCBS Tennessee claimed unallowable SERP costs
because it did not calculate them in accordance with Federal regulations and the Medicare
contracts’ requirements.

The Medicare contracts require BCBS Tennessee to calculate SERP costs in accordance with the
FAR and CAS 412 and 413. BCBS Tennessee did not meet the conditions for assigning the cost
of its nonqualified defined-benefit pension plan in the same manner as qualified plans.
Therefore, it should have assigned SERP costs to cost accounting periods using the pay-as-you-
go method. However, BCBS Tennessee incorrectly assigned SERP costs on an accrual basis.

We calculated the allowable SERP costs based on periodic payments made to SERP recipients,
plus a 15-year amortization of lump-sum SERP payments, in accordance with CAS 412-50(b)(3).
Accordingly, we determined that the allowable pay-as-you-go SERP costs for FYs 2005 through
2009 totaled $359,578.

The table below compares allowable SERP costs with the SERP costs claimed on BCBS
Tennessee’s FACPs. Appendix A contains additional details on the allowable SERP costs.

                                     Medicare SERP Costs
                                                     Claimed by
                                    Allowable          BCBS
                    Fiscal Year     Per Audit        Tennessee    Difference
                       2005            $74,869          $354,696   ($279,827)
                       2006             66,848           342,207    (275,359)
                       2007             82,956           368,442    (285,486)
                       2008             88,114           207,738    (119,624)
                       2009             46,791            92,176     (45,385)
                       Total          $359,578        $1,365,259 ($1,005,681)

UNALLOWABLE SUPPLEMENTAL EXECUTIVE
RETIREMENT PLAN TERMINATION CLAIM

BCBS Tennessee’s entire termination claim of $365,285 in SERP costs for the Medicare Part A
contracts was unallowable for Medicare reimbursement. BCBS Tennessee submitted a
termination claim for costs that it said it would incur subsequent to the termination of the
Medicare contracts.

According to CAS 412.50(c)(3) and (c)(4), BCBS Tennessee’s SERP should have assigned
SERP costs to cost accounting periods using the pay-as-you-go cost method. The allocable costs
of BCBS Tennessee’s SERP therefore consisted of (1) the net amount for any periodic benefits
paid for that period and (2) the level annual installment required to amortize, over 15 years, any
lump-sum benefit payments.

BCBS Tennessee’s contractual relationship with CMS terminated on August 1, 2009. On
November 24, 2009, BCBS Tennessee submitted a termination claim of $365,285 to seek
reimbursement for unamortized SERP costs that it said it had not incurred prior to the

                                                 4
termination of the Medicare contracts but would incur subsequent to the termination of those
contracts. BCBS Tennessee based its termination claim on a 2003 settlement loss.

The termination claim represented a claim for reimbursement of unfunded costs, which did not
comply with all the requirements of CAS 412.50(c)(3). In addition, the SERP termination claim
was based on an amount that did not comply with the CAS. Pursuant to CAS 412, these costs
were unallowable for Medicare reimbursement.

RECOMMENDATIONS

We recommend that BCBS Tennessee:

    •   revise its FACPs for FYs 2005 through 2009 to reduce its claimed SERP costs by
        $1,005,681 and

    •   withdraw its termination claim of $365,285 for SERP costs associated with the Medicare
        Part A contracts.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendations.
BCBS Tennessee stated that it would work directly with CMS to resolve these issues.

BCBS Tennessee’s comments are included in their entirety as Appendix B.

                                      OTHER MATTER

BCBS Tennessee’s Medicare contract was terminated on August 1, 2009. BCBS Tennessee
claimed SERP costs on its FACPs through July 31, 2009. However, as of August 1, 2009, BCBS
Tennessee had a remaining balance of unamortized SERP payments of $8,449,576 prior to being
allocated to Medicare on the basis of the Medicare-to-Total-Company ratio.




                                               5
APPENDIXES
      APPENDIX A: BLUE CROSS BLUE SHIELD OF TENNESSEE STATEMENT
          OF ALLOWABLE SUPPLEMENTAL EXECUTIVE RETIREMENT
           PROGRAM COSTS FOR FISCAL YEARS 2005 THROUGH 2009

               Amortized
               Lump-Sum              Annuity           Allocable          Medicare         Medicare
                 Benefit             Benefit          Total Benefit        Salary          Allowable
  Year          Payments            Payments           Payments            Ratio          SERP Costs
                    1/                 2/                   3/               4/                5/
  2005              578,444           230,077              808,521           9.26%              74,869
  2006              588,274           220,046              808,320           8.27%              66,848
  2007              903,503           201,102            1,104,605           7.51%              82,956
  2008            1,143,224           195,901            1,339,125           6.58%              88,114
  2009            1,061,637           163,250            1,224,887           3.82%              46,791

  Total          $4,275,082         $1,010,376          $5,285,458                            $359,578


ENDNOTES

1/ Blue Cross Blue Shield of Tennessee (BCBS Tennessee) provided a schedule of lump-sum
   benefit payments. In accordance with Cost Accounting Standard 412.50(b)(3), we amortized
   the lump-sum benefit payments, including an interest equivalent, over a 15-year period. In
   computing the interest component for the amortized lump-sum benefit payments, we used the
   valuation interest rate identified in the qualified defined benefit plan actuarial valuation reports.

2/ BCBS Tennessee provided a schedule of annuity payments for each calendar year. We
   converted the calendar annuity payments to a fiscal year basis (October 1 through September
   30). We calculated the fiscal-year annuity payments as 1/4 of the prior year’s annuity payments
   plus 3/4 of the current year’s annuity payments.

3/ Allocable total benefit payments are the sum of the (i) amortized allocable lump-sum benefit
   payments and (ii) allocable annuity benefit payments. Allocable total benefit payments differ
   from the total benefit payments provided to us by BCBS Tennessee because of the amortization
   of lump-sum benefit payments.

4/ BCBS Tennessee provided the Total Company Medicare salary ratio for each fiscal year. We
   verified the percentages and determined that they were reasonable.

5/ Medicare allowable Supplemental Executive Retirement Plan costs are total benefit payments
   multiplied by the Medicare salary ratio.
                                 APPENDIX B: AUDITEE COMMENTS 




+
To III
   ~
         of Tennessee
         plans for betta, health. plans for a bettar lif.:­
         1 Cameron Hill Circle
         Chattanooga, TN 37402
         bcbst.com


     August 10,20 12

     Patrick J. Cogley
     Regional Inspector General for Audit Services
     Department of Health & Human Services
     Office of Inspector General
     Office of Audit Services. Region VlI
     601 East lth Street, Room 0429
     Kansas City, MO 640 16

     Re: Report Number: A-07-12-00391

     Mr. Cogley:

     This letter is in response to your letter dated June 22, 2012, and the attached draft report entitled Bille
     Cross Blue Shield a/Tenllessee Overc/aimed Supplemental Execulive Retirement Plan Costs for Fiscal
     Years 2005 Through 2009. As requested, following are our comments on the two summary
     recommendations set forth in the report including a statement of concurrence as well as a statement
     describing the nature of the corrective action taken or planned.


     Recommendation: Reduce claimed SERP costs by $1.005,68 1

     We concur with this recommendation and will work directly with CMS to resolve this issue as we no
     longer have access to the CAFM system to revise F ACP's.


     Recommendation: Withdraw tennination claim of $365.285

     We concur with this recommendation and will work with CMS to resolve this issue. In addition, we
     wiU request payment from CMS for the allowable portion of unamortized SERP payments.

     if you have questions or comments regarding this response or require anything further, please contact
     me bye-ma il at Ralph Woodard@ BCBST.com or by phone at 423-535-5192.




     Chief Financial Officer, Riverbend Government Benefits Administrator, mc.




                            BlueC.ou 81ueShield ofTe nn e ssee.lnc. an Independent licensee of the BlueC.oSl BlueShleld AsSOCiation
